                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: 109070037                                                                     Page 1 of 1



            This case was opened pursuant to a proactive review of potentially high risk institutions. From
            the grantee 1, we requested the general ledger and supporting documentation for an NSF award2.
            During our review of the records provided by the institution, we did not identify any fraudulent
            expenditures. Accordingly, this case is closed.




NSF OlG Form 2 (11/02)
